                                                                         September 27, 2013



                         OFFICE OF INSPECTOR GENERAL
                   EXPORT-IMPORT BANK OF THE UNITED STATES

     OPERATIONS PLAN IN THE ABSENCE OF CURRENT YEAR APPROPRIATIONS

1. PURPOSE

  This is general guidance in the event of a funding hiatus caused by the absence of
  current year appropriations, either through failure to pass a regular appropriations bill
  or a continuing resolution (CR). It will be supplemented by more specific guidance for
  any specific funding hiatus. For example, the designation of excepted, funded, and other
  employees and use of available funding may vary depending on the circumstances of a
  specific funding hiatus.

  As the appropriated funds of the Office of Inspector General (OIG) of the Export-Import
  Bank of the United States (Ex-Im Bank) are two-year funds and do not expire until
  September 30, 2014, the Ex-Im Bank OIG anticipates existing funds will cover
  expenditures during any lapse in current year appropriations until approximately
  January 24, 2014 and therefore, the OIG does not expect to furlough any of its staff
  at this time. This document contains the plans of the Ex-Im Bank OIG in the event that
  it exhausts currently available funds in the absence of new appropriations legislation.

2. AUTHORITY

  Office of Management and Budget (OMB) Circular A-11, Section 124, Agency Operations
  in the Absence of Appropriations.

3. REFERENCES

  Guidance and information regarding furloughs based on unforeseeable conditions can
  be found under “Guidance and Information on Furloughs” at
  http://www.opm.gov/policy-data-oversight/pay-leave/furlough-guidance/.

4. BACKGROUND

  OMB Circular A-11 requires agencies to develop and maintain “shutdown plans” for an
  orderly suspension of agency operations during a funding hiatus. Agency shutdown
  plans must designate “excepted” and “funded” employees who will be retained to
  perform “excepted” or “funded” activities and requires the agencies to furlough all other
  employees. The Ex-Im Bank OIG has received two-year funding through annual
  appropriations. Specifically, for Fiscal Year 2013, the OIG received $4,000,000, to
  remain available until September 30, 2014, for necessary expenses of the OIG in
  carrying out the provisions of the Inspector General Act of 1978, as amended. See
  Consolidated and Further Continuing Appropriations Act, 2013, Pub. L. 113–6, Division
  F, Title I, incorporating The Department of State, Foreign Operations, and Related
  Programs Appropriations Act, 2012 (division I of Pub. L. 112–74). After sequestration,


                                            1
                                                                           September 27, 2013


  the funding was reduced to $3,797,495. Thus, Ex-Im Bank's OIG has 2-year funding
  which as of October 1, 2013, will have not run out. OIG anticipates the funds to cover
  expenditures through the pay period ending on January 24, 2014.

5. POLICY

  A. Any lapse in funding is expected to be temporary and of short duration. If the Ex-Im
     OIG was to suspend its operations during a funding hiatus, the Inspector General
     (IG) has determined that only law enforcement agents (also known as 1811s) with
     pending matters in front of the U.S. Department of Justice (or U.S. Court Systems)
     are reasonably necessary for the protection of human life and property and, in
     particular, are required to ensure that the continuity of the investigated cases and
     effective prosecutions of individuals who committed fraud against Ex-Im Bank’s
     programs and operations.

  B. All activities not reasonably necessary for the safety of human life or the protection
     of property will be suspended. This includes audit work, inspection work and
     administrative support for general OIG operations, Congressional relations
     activities, and others.

6. DEFINITIONS

  A. Excepted activities – Excepted activities are military activities, law enforcement
     activities, the direct provision of health care and other activities that are reasonably
     necessary for the safety of human life or the protection of property in general. There
     must be some reasonable and articulable connection between the activity to be
     performed and the safety of human life or protection of property and there must be
     some reasonable likelihood that the safety of human life or protection of property
     would be compromised in some significant degree by the delay in the performance
     of the activity in question. The threat to human life or property if the activity is not
     performed must reasonably be said to be near at hand and demanding of immediate
     response.

  B. Excepted employees - Excepted employees are employees who perform excepted
     activities. Excepted employees continue to report to work during a shutdown.

  C. Funded activities – Funded activities are activities that are not excepted activities
     and that, at the discretion of the IG, continue to fund with two-year appropriated
     funds. As stated before, the OIG has a two-year appropriation and, in the absence of
     current year appropriations, may use any funding remaining available from the
     immediately preceding fiscal year to continue operations in furtherance of the IG
     Act.

  D. Funded employees – Funded employees are OIG employees who are authorized to
     continue to report to work during a shutdown to perform funded activities.




                                             2
                                                                          September 27, 2013


  E. Furlough - A furlough is the placing of an employee in a temporary non-duty, non-
     pay status because of lack of work or funds or other non-disciplinary reasons.

7. OMB CIRCULAR A-11 REPORTING REQUIREMENTS

  In accordance with the reporting requirements in OMB Circular No. A-11, Section 124.2,
  the following information is provided:

  A. Estimate of the time (to the nearest half day) to complete the shutdown:

     One half day for all non-excepted employees. This will enable an orderly shutdown
     of all non-excepted activities.

  B. Number of employees expected to be on-board before the implementation of
     the plan:

     The OIG has 20 employees with announcements to hire two additional staff. This
     would bring our total to 25 staff. All of the OIG employees are located at Ex-Im Bank
     headquarters in Washington, D.C.

  C. Total number of employees to be retained under the Plan because:

     (1)   They are engaged in military, law enforcement or direct provision of health
           care activities: up to 5 (consisting of 5 law enforcement offices – 1811s -
           employees in the OIG engaged in law enforcement activities).

     (2)   The IG, as Presidential appointed Senate-confirmed position.

  D. Number of employees, not otherwise exempt, to be retained to protect life and
     property: None

  E. EXCEPTED AND FUNDED EMPLOYEES

     (1)    The following are the categories of employees who will not be furloughed in
            the event of a lapse in current year appropriations:

            (A) Presidential appointed Senate-confirmed positions – IG

            (B) Employees engaged in law enforcement – up to 5 law enforcement
                agents – 1811s -

     (2)    Employees required during the shutdown process - The “shutdown”
            process is not a permanent shutdown of the agency or its operations. It is a
            suspension of normal regular operations during a lapse in appropriations.
            The Office of Management and Budget has determined that the normal
            winding down of operations should take no more than four hours. During the
            winding down time, the activities of employees who are not excepted or



                                           3
                                                                          September 27, 2013


            funded employees must be wholly devoted to closing down their regular
            functions and, upon completion, these employees will be furloughed.

     EXAMPLES:

     •   Performing payroll functions for the period just prior to the appropriation lapse.

     •   Completing inventories of property and records to assure protection of the
         Government’s interests and claims of affected private entities and individuals.

     •   For “partially excepted” activities, the transferring of any ongoing work
         necessary to support an “excepted” activity.

     •   Personnel functions to process furlough/reduction-in-force notices.

     •   Finalize audit and inspection activities.



8. ORDERLY SHUTDOWN OF NON-EXCEPTED AND NON-FUNDED ACTIVITIES

  A. The IG will advise employees of a funding hiatus as soon as possible after FY 2013
     appropriations lapse. The OIG will communicate with employees regarding its plans
     if it becomes necessary to effect an orderly suspension of agency operations.

  B. The IG will designate which positions are “excepted”, “funded” or “non-excepted”
     and notify employees of their individual designation. See section E.

  C. The IG will prepare draft “emergency” furlough decision notices for distribution to
     employees to the extent possible within the limited time available.

  D. An immediate hiring freeze begins on the first workday of the hiatus. No new job
     offers will be made, and any firm or tentative job offers are suspended until the
     funding hiatus is over.

  E. On the first workday of the hiatus, all employees should report to work as scheduled
     and the agency will proceed with the orderly shutdown of operations. Supervisors
     will inform non-excepted, non-funded employees of the status of funding and
     instruct them to limit their work activities to those functions necessary for the
     orderly cessation of operations.

  F. Non-excepted, non-funded employees should perform only those tasks necessary to
     safeguard property, records and information and to complete administrative
     functions such as processing payroll up to the beginning of the funding hiatus. In
     addition, non-excepted and non-funded personnel should (1) take measures to
     secure files, (2) make external contacts necessary to communicate the office’s status,
     such as notifying parties of the cessation of normal business and canceling non-


                                             4
                                                                        September 27, 2013


   essential meetings, conferences and other previously arranged business, (3)
   document the status of cases and projects so that they can be resumed, transferred
   or otherwise appropriately handled when the Ex-Im Bank OIG operational status is
   resumed, (4) perform those tasks necessary to protect confidential information, and
   (5) perform necessary functions to process all unpaid bills in hand for obligations
   incurred prior to the first day of the funding hiatus. It is anticipated that these
   activities will take approximately four hours for most employees. Since it is
   assumed that such a hiatus will be temporary and of short duration, no action will
   be taken that will impede the orderly resumption of operations once funds are
   available.

G. Personnel and payroll records and processing – The OIG will take necessary
   personnel actions to release employees in accordance with applicable law and
   regulations of the Office of Personnel Management with support of Ex-Im Bank
   personnel office (due to small size of the OIG). The OIG, with support of Ex-Im Bank
   personnel office, must prepare employee notices of furlough and process personnel
   and pay records in connection with shutdown furlough actions. These functions are
   to be performed by employees who are retained for orderly termination of agency
   activities as long as those employees are available.

H. After performing the functions necessary for an orderly suspension of non-excepted
   operations, non-excepted and non-funded employees will be furloughed.

I. All staff training will be suspended.

J. General services, transportation, supplies and acquisition staffs will be curtailed and
   will be available only to support excepted activities.

K. Unless otherwise authorized by the IG on the basis of legal advice provided by the
   Legal Counsel, furloughed employees may not perform voluntary services for the
   agency, come to the office, perform work-related activities from their home or use
   blackberries or tokens to access IT systems.

L. Supervisors will be responsible for notifying absent employees of the furlough as
   soon as possible after a lapse in current year appropriations occurs. All pre-
   approved paid leave (annual, sick, court or military) is canceled for the duration of
   the shutdown. No requests for paid leave will be granted during the shutdown.
   Those on pre-approved leave without pay (LWOP) may remain on LWOP for the
   duration of the shutdown.

M. Employees should listen to public broadcasts and view the OPM website to stay
   informed on the status of agency funding during the hiatus. Furloughed employees
   are expected to report to work as scheduled on the first workday after the
   enactment of an appropriation or continuing resolution that makes funds available
   to the agency.




                                           5
                                                                          September 27, 2013


  N. The status of Bank assets and obligations will be reviewed on a regular basis and
     any other adjustments in personnel status will be made as needed.

9. EMPLOYEE BENEFITS

  A. Employee benefits – See link http://www.opm.gov/policy-data-oversight/pay-
     leave/furlough-guidance/ for detailed benefits information regarding retirement,
     health benefits, life insurance, unemployment compensation, holiday and other
     leave entitlements, continuation of pay, performance awards and within-grade
     increases, etc.

  B. Unemployment benefits - It is possible that employees may be eligible for
     unemployment compensation, especially if they are on consecutive furlough days.
     Each state’s unemployment compensation requirements differ. Employees should
     submit their questions to the appropriate state office.

  C. Health and life insurance coverage and premiums - Federal Employee Health Benefit
     (FEHB) premiums are deducted from the employee’s pay. If the employee’s pay is
     insufficient to cover the FEHB premium, the agency must forward the full premium
     to the Employee Health Benefits Fund. The employee can pay the premium directly
     to the agency or have it withheld from pay when he or she returns to regular duty.
     The enrollment continues for up to 365 days of non-pay status.

  D. Federal Employee Group Life Insurance (FEGLI) coverage continues, and
     contributions made by the employee and the employee’s agency continue if the
     employee’s salary in each pay period is sufficient to cover deductions. If the
     employee’s salary is insufficient to cover his or her withholding, the employee’s
     coverage will continue for up to 12 months without cost to the employee or the
     employee’s agency.

  E. Leave accrual - For each full pay period of non-pay status (80 hours), employees will
     not accrue annual or sick leave. Employees will accrue leave during the first and last
     pay periods as long as there is a period of time in a pay status.

  F. Service credit - Periods of non-pay status of less than 6 months will have no impact
     on most benefits. Only leave accrual, length of trial period, waiting periods for
     within-grade increases and TSP agency matching contributions may be impacted
     under a short term furlough.

10. TRAVEL

  A. Only essential travel in the U.S. and overseas may be approved and it must be
     limited to the lowest level consistent with carrying on excepted activities. Essential
     travel will be judged by standards such as protecting life and property, maintaining
     excepted post operations, directly supporting major activities constituting excepted
     activities, emergency visitations and medical or other ordered evacuations.



                                            6
                                                                              September 27, 2013


      B. Other personnel in TDY status not performing “excepted” activities must stop work
         and await further instructions. Because any hiatus is expected to be temporary,
         personnel in non-essential travel status should not initially be instructed to return
         to their home duty stations.

11.      CONTRACTS

      A. Funding gaps due to lapses in appropriations raise particularly difficult issues in the
         area of contractual commitments, where generally applicable Anti-Deficiency Act
         requirements may be in apparent conflict with orderly shutdown activities and with
         continuation of excepted functions. The following guidance is directed toward
         providing a framework for consistent treatment of contractual commitments that is
         consistent with the overall shutdown plan and that will minimize ultimate costs and
         disruptions.

      B. Excepted activities - Contracts that are required to carry out excepted activities may,
         to the extent that the contract has been funded, continue to be performed during a
         funding hiatus and should not be suspended. If the funding for such a contract is
         exhausted, additional funding may be obligated in accordance with paragraph 12.E.
         below.

      C. Non-excepted activities - Contracts that are not required for excepted activities may
         continue to be performed during a funding hiatus and should not be suspended if
         they are fully funded prior to the beginning of the funding hiatus and either:

         (1) they require no oversight or input from OIG employees; or

         (2) they require oversight or input by OIG employees, but suspending the contract
             would cause the agency to lose permanently a significant portion of the
             benefits under the contract.

      D. Previously awarded contracts and leases that would, in the absence of funding,
         require renewal or modification during a lapse in appropriations to obligate
         additional funds for continued performance may be authorized to continue only for
         excepted or funded activities.

      E. Personnel may continue to work or be brought in under the necessary implications
         exception to the extent that they are needed to oversee or provide input on
         contracts that have not been suspended.

      F. New contractual commitments may be made during the funding hiatus only if
         required to carry out excepted activities or if they are for funded activities approved
         by the IG.




                                                7
                                                                              September 27, 2013


12.     OBLIGATIONS AND PAYMENTS

      A. Obligations - During any lapse in current year appropriations, obligations against
         lapsed appropriations may continue to be incurred for excepted and funded
         activities. Financial management and certifying officers have the responsibility to
         ensure that only authorized obligations are recorded.

      B. Payments - During any lapse in current year appropriations, the OIG generally may
         not make payments even for valid obligations established against prior year annual
         appropriations or for current fiscal year obligations established prior to the
         beginning of the funding hiatus. Financial management and certifying officers have
         the responsibility to ensure that only payments that are permitted to be made
         against authorized obligations are certified and forwarded for payment. Specific
         guidance is as follows:

         (1) Payments against obligations established prior to the beginning of the funding
             hiatus may be made only if the payment is reasonably necessary to protect life
             or property or Congress intends the activity to continue and not making
             payments would harm or impair the activity. In all other cases, payment must
             be deferred.

         (2) The OIG may not certify or authorize payments for obligations established
             after the beginning of the funding hiatus for excepted activities. Obligations
             can be incurred for excepted activities but cannot be posted (formally
             recorded) in the Agency’s financial systems until funding becomes available.

         (3) U.S. direct hire salaries, benefits and allowances - While obligations can
             continue to be established for payrolls for persons performing excepted
             activities, payments for salaries and allowances may only be made for services
             rendered through the beginning of the funding hiatus.

         (4) Travel - Only travel in fulfillment of excepted activities can be initiated after a
             lapse of appropriations. Per guidance above, even in cases of travel in this
             category, obligations made after any lapse of appropriations should not be
             recorded on official bureau or post accounts even though obligations have
             been incurred. Blanket travel orders issued prior to the beginning of the
             funding hiatus are not valid during the lapse period, unless in the case of
             overseas travel, travel commenced or any cost was incurred for that travel
             prior to the shutdown. No travel advances can be issued unless the obligation
             for overseas travel was incurred prior to the beginning of the funding hiatus.
             Travel voucher reimbursements can be processed only if against obligations
             incurred and recorded for prior years (including obligations incurred after the
             beginning of the funding hiatus from multi-year or no-year appropriations that
             remain available) or for the current year if obligated prior to the beginning of
             the funding hiatus. Travelers who hold Citibank Travel Cards may charge
             advances against these cards for any approved trips as travel card advance



                                                8
                                                                   September 27, 2013


     charges do not create advances to official accounts. As part of GSA Smart Pay
     cards, Citibank Travel Cards will continue to function normally and banks will
     continue to provide service. Cardholders, as usual, should contact the bank
     customer service organization should they experience problems with their
     cards.

(5) Purchase order payments - Generally, purchase order obligations and
    payments are to be governed by the above guidance. Obligations for purchase
    orders prior to the beginning of the funding hiatus should have been recorded.
    Payments against these obligations can be processed following the
    “Disbursements” guidance above. Obligations incurred for purchase orders
    after the beginning of the funding hiatus for excepted activities other than out
    of prior year appropriations cannot be recorded and payments against these
    obligations cannot be made.

(6) Absolutely necessary payments - If it is necessary to make payments in
    emergency situations (e.g., to protect life or property) against obligations
    incurred after the beginning of the funding hiatus, the OIG should send a memo
    or email, on a case-specific basis, to request use of carryover funds that the IG
    in collaboration with Ex-Im Bank Chief Financial Officer determines may be
    available for such purpose. Each request should provide details of the date the
    funds are needed, the amount, the justification, and any other relevant
    information. Requests of this type should be limited to extreme cases and
    must be approved by the IG.




                                      9
